OIG Investigative Reports, Press Release Hammond Indiana, June 28, 2013 - Indiana Resident Pleads Guilty to Theft of Public Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney David Capp
Northern District of Indiana
5400 Federal Plaza, Suite 1500
Hammond, Indiana  46320
Hammond
FOR IMMEDIATE RELEASE:
June 28, 2013
www.usdoj.gov/usao/inn/
South Bend
Fort Wayne
Contact: Mary Hatton
Phone: (219) 937-5603
Fax: (219) 314-9993
mary.hatton@usdoj.gov
Indiana Resident Pleads Guilty to Theft of Public Funds
Hammond, IN— Nicole Smith, 31, of Hammond, Indiana, was sentenced by Magistrate Judge Andrew Rodovich to 1 year of probation after pleading guilty to the felony misdemeanor of theft of government property.  According to documents filed by the government in this case, Smith admitted that during the 2008-2009 academic school year at Purdue University-Calumet she submitted an application to receive federal funds for student aid and failed to report additional income received from Action for Children, which provides financial assistance for childcare for families living in the state of Illinois.  This case was the result of an investigation by the United States Postal Service-Office of the Inspector General.  This case was prosecuted by Assistant United States Attorney Toi Houston.
Top
Printable view
Last Modified: 07/17/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov